<html>
<title> - NOMINATION OF KRYSTA L. HARDEN TO BE DEPUTY SECRETARY OF AGRICULTURE AND ROBERT BONNIE TO BE UNDER SECRETARY OF AGRICULTURE FOR NATURAL RESOURCES AND ENVIRONMENT</title>
<body><pre>[Senate Hearing 113-249]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 113-249
 
                  NOMINATION OF KRYSTA L. HARDEN TO BE
                  DEPUTY SECRETARY OF AGRICULTURE AND
                  ROBERT BONNIE TO BE UNDER SECRETARY
                  OF AGRICULTURE FOR NATURAL RESOURCES
                            AND ENVIRONMENT

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON AGRICULTURE,

                         NUTRITION AND FORESTRY

                          UNITED STATES SENATE


                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION


                               __________

                             JULY 23, 2013

                               __________

                       Printed for the use of the
            Committee on Agriculture, Nutrition and Forestry


        Available via the World Wide Web: http://www.fdsys.gov/




                  U.S. GOVERNMENT PRINTING OFFICE
87-567                WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




            COMMITTEE ON AGRICULTURE, NUTRITION AND FORESTRY



                 DEBBIE STABENOW, Michigan, Chairwoman

PATRICK J. LEAHY, Vermont            THAD COCHRAN, Mississippi
TOM HARKIN, Iowa                     MITCH McCONNELL, Kentucky
MAX BAUCUS, Montana                  PAT ROBERTS, Kansas
SHERROD BROWN, Ohio                  SAXBY CHAMBLISS, Georgia
AMY KLOBUCHAR, Minnesota             JOHN BOOZMAN, Arkansas
MICHAEL BENNET, Colorado             JOHN HOEVEN, North Dakota
KIRSTEN GILLIBRAND, New York         MIKE JOHANNS, Nebraska
JOE DONNELLY, Indiana                CHARLES E. GRASSLEY, Iowa
HEIDI HEITKAMP, North Dakota         JOHN THUNE, South Dakota
ROBERT P. CASEY, Jr., Pennsylvania

             Christopher J. Adamo, Majority Staff Director

              Jonathan W. Coppess, Majority Chief Counsel

                    Jessica L. Williams, Chief Clerk

              Thomas Allen Hawks, Minority Staff Director

       Anne C. Hazlett, Minority Chief Counsel and Senior Advisor

                                  (ii)


                           C O N T E N T S

                              ----------                              
                                                                   Page

Hearing(s):

Nomination of Krysta L. Harden to be Deputy Secretary of 
  Agriculture and Robert Bonnie to be Under Secretary of 
  Agriculture for Natural Resources and Environment..............     1

                              ----------                              

                         Tuesday, July 23, 2013
                    STATEMENTS PRESENTED BY SENATORS

Stabenow, Hon. Debbie, U.S. Senator from the State of Michigan, 
  Chairwoman, Committee on Agriculture, Nutrition and Forestry...     1
Cochran, Hon. Thad, U.S. Senator from the State of Mississippi...     3
Chambliss, Hon. Saxby, U.S. Senator from the State of Georgia....     3
Bishop, Hon. Sanford, U.S. Representative in Congress from the 
  State of Georgia...............................................     4

                               Witnesses

Harden, Krysta L., of Georgia, to be Deputy Secretary of 
  Agriculture....................................................     6
Bonnie, Robert, of Virginia, to be Under Secretary of Agriculture 
  for Natural Resources and Environment..........................     8
                              ----------                              

                                APPENDIX

Prepared Statements:
    Bonnie, Robert...............................................    22
    Harden, Krysta L.............................................    25
Document(s) Submitted for the Record:
    Public 5 day letter, Committee questionnaire and Office of 
      Government Ethics Executive Branch Personnel Public 
      Financial Disclosure Report filed by Robert Bonnie.........    34
    Public 5 day letter, Committee questionnaire and Office of 
      Government Ethics Executive Branch Personnel Public 
      Financial Disclosure Report filed by Krysta L. Harden......    77
    Various organizations, letters of support for Robert Bonnie..    99
    Various organizations, letters of support for Krysta L. 
      Harden.....................................................   104
Bonnie, Robert:
    ``Endangered species mitigation banking: promoting recovery 
      through habitat conservation planning under the Endangered 
      Species Act.''.............................................   112
    ``Protecting terrestrial ecosystmes and the climate through a 
      global carbon market'', The Royal Society..................   121
    ``A Market-Based Approach to Conservation of the Red-Cockaded 
      Woodpecker on Private Lands................................   142
    ``Chapter 12, Financing Private Lands''......................   151
    ``Conservation & Biodiversity Banking: A Guide to Setting up 
      and Running Biodiversity Credit Trading Systems''..........   160
    ```Safe Harbors' Foes Have Ulterior Motive'', article, The 
      Dallas Morning News........................................   169
    ``Program Will Give Longleaf Pines a Fighting Chance''. 
      article, The Atlanta Journal-Constitution..................   170
    ``Habitat Trading for Red Cockaded Woodpeckers: Enhancing 
      Recovery, Reducing Conflicts''.............................   171
    ``Saving Forests, Earning Credits''..........................   174
Harden, Krysta L.:
    ``Grill the CEO, Krysta Harden answers your tough questions''   175
Question and Answer:
Hon. Debbie Stabenow:
    Written questions to Robert Bonnie...........................   206
    Written questions to Krysta L. Harden........................   206
Cochran, Hon. Thad:
    Written questions to Robert Bonnie...........................   208
    Written questions to Krysta L. Harden........................   240
Bennet, Hon. Michael:
    Written questions to Robert Bonnie...........................   215
    Written questions to Krysta L. Harden........................   214
Boozman, Hon. John:
    Written questions to Robert Bonnie...........................   218
Gillibrand, Hon. Kirsten:
    Written questions to Robert Bonnie...........................   223
    Written questions to Krysta L. Harden........................   221
Grassley, Hon. Charles:
    Written questions to Krysta L. Harden........................   224
Johanns, Hon. Mike:
    Written questions to Krysta L. Harden........................   225
Klobuchar, Hon. Amy:
    Written questions to Robert Bonnie...........................   227
    Written questions to Krysta L. Harden........................   227
McConnell, Hon. Mitch:
    Written questions to Krysta L. Harden........................   228
Hon. Pat Roberts:
    Written questions to Robert Bonnie...........................   230
    Written questions to Krysta L. Harden........................   229
Thune, Hon. John:
    Written questions to Robert Bonnie...........................   233
    Written questions to Krysta L. Harden........................   231
Bonnie, Robert:
    Written response to questions from Hon. Debbie Stabenow......   237
    Written response to questions from Hon. Thad Cochran.........   241
    Written response to questions from Hon. Michael Bennet.......   239
    Written response to questions from Hon. John Boozman.........   254
    Written response to questions from Hon. Kirsten Gillibrand...   238
    Written response to questions from Hon. Amy Klobuchar........   238
    Written response to questions from Hon. Pat Roberts..........   249
    Written response to questions from Hon. John Thune...........   251
Harden, Krysta L.:
    Written response to questions from Hon. Debbie Stabenow......   259
    Written response to questions from Hon. Thad Cochran.........   265
    Written response to questions from Hon. Michael Bennet.......   264
    Written response to questions from Hon. Charles Grassley.....   277
    Written response to questions from Hon. Mike Johanns.........   275
    Written response to questions from Hon. Amy Klobuchar........   260
    Written response to questions from Hon. Mitch McConnell......   277
    Written response to questions from Hon. Pat Roberts..........   272
    Written response to questions from Hon. John Thune...........   274



                  NOMINATION OF KRYSTA L. HARDEN TO BE

                  DEPUTY SECRETARY OF AGRICULTURE AND

                  ROBERT BONNIE TO BE UNDER SECRETARY

                  OF AGRICULTURE FOR NATURAL RESOURCES



                            AND ENVIRONMENT

                              ----------                              


                         Tuesday, July 23, 2013

                              United States Senate,
          Committee on Agriculture, Nutrition and Forestry,
                                                     Washington, DC
    The Committee met, pursuant to notice, at 10:36 a.m., room 
328A, Russell Senate Office Building, Hon. Debbie Stabenow, 
Chairwoman of the Committee, presiding.
    Present or submitting a statement: Senators Stabenow, 
Bennet, Donnelly, Cochran, Chambliss, Hoeven, Grassley, and 
Thune.

STATEMENT OF HON. DEBBIE STABENOW, U.S. SENATOR FROM THE STATE 
 OF MICHIGAN, CHAIRWOMAN, COMMITTEE ON AGRICULTURE, NUTRITION 
                          AND FORESTRY

    Chairwoman Stabenow. Well, good morning.
    The Senate Agriculture, Nutrition, and Forestry Committee 
will come to order and we are delighted to have this nomination 
hearing this morning.
    I first want again, brag about our Committee and thank our 
members. We were successful by unanimous consent of replacing 
House Farm Bill with the complete bipartisan Farm Bill on 
Thursday evening and sent it back to the House and asked for a 
conference.
    This would not have been possible without extraordinary 
leadership on this Committee. I always thank Senator Cochran 
and Senator Chambliss, who is sitting here, played a tremendous 
role in that. I want to thank you very much for your leadership 
in that effort as well.
    Senator Hoeven, who is not here at the moment, who also 
stayed on the floor Thursday night was very helpful. All the 
members were extraordinarily helpful, and I am optimistic that 
we are going to get a Farm Bill because we in the Senate worked 
together on a bipartisan basis and we are committed to getting 
it done and I think our ability to do that last week was an 
example of why it is going to get done.
    So I just want to thank all of our members on both sides of 
the aisle for continuing to keep our eye on the prize which is 
making sure that we are putting together a comprehensive five-
year Farm Bill for our farmers and ranchers and consumers and 
rural communities and everybody who likes to eat.
    [Laughter.]
    Chairwoman Stabenow. So, we are happy to do that.
    So, let me say today the Committee is meeting to consider 
the nomination of Krysta Harden of Georgia to be the Deputy 
Secretary of the United States Department of Agriculture and 
Robert Bonnie of Kentucky to be Under Secretary for Natural 
Resources and the Environment at the Department of Agriculture.
    We welcome and congratulate both of you on your nominations 
and we also welcome your families and certainly want to give 
you an opportunity, when you are speaking, to introduce them as 
well.
    These positions are critically important for America's 
farmers and ranchers and our natural resources that serve as 
the foundation of our wealth as a Nation. The Deputy Secretary 
position at the Department of Agriculture is a vital role as 
the second-highest ranking official in the USDA.
    That means that our nominee will play a critical role in 
managing the Department as it works to enhance the safety and 
quality of the U.S. food supply while serving America's farmers 
in rural communities.
    Ms. Harden, I hope that you will use your perspective that 
you have gained as a longtime public servant to improve the 
operations of the Department by assessing how the agencies are 
measuring performance and efficiency, cutting down on 
duplication, and reviewing the quality of customer service 
which I know is a continual focus.
    I have confidence that your experiences as Chief of Staff 
and as Assistant Secretary for Congressional Relations at the 
USDA have prepared you to manage relations between the 
Department and lawmakers as well as interagency concerns as 
well.
    Mr. Bonnie, the Under Secretary for Natural Resources and 
Environment at the USDA also plays a key role. As Under 
Secretary, you will be the principal advisor to the United 
States Secretary of Agriculture on policy to promote the 
conservation and sustainable use of our Nation's natural 
resources on private lands and to sustain production of all the 
goods and services that the public demands of our National 
Forests.
    I trust, Mr. Bonnie, that your prior position as a Senior 
Policy Adviser for the USDA has prepared you to take on the 
tremendous task of overseeing the day-to-day operations of the 
U.S. Forest Service and Natural Resources Conservation Service.
    Ms. Harden and Mr. Bonnie, your nominations come at a very 
important time. The staff at the Department of Agriculture has 
been and will continue to be an indispensable resource for us 
as we move forward with the Farm Bill.
    USDA provides the boots on the ground, working directly 
with our farmers and ranchers to implement vital programs that 
we have worked so hard to make more efficient in the Senate-
passed Farm Bill.
    We write the legislation, but it is up to you to implement 
the policies and to create the rules that best serve the 16 
million people whose jobs depend on American agriculture.
    I know I speak for all the members of the Committee when we 
say that we take our obligation to advise and consent very 
seriously and we look forward to your remarks.
    Before turning to my distinguished Ranking Member, I would 
like to offer two items into the record. The first is a letter 
in support of Ms. Harden's nomination by roughly 140 
agriculture groups.
    [The following information can be found on page 104 in the 
appendix.]
    Chairwoman Stabenow. The second is a letter in support of 
Mr. Bonnie's nomination signed by roughly 90 conservation and 
forestry groups. Those are quite the coalitions.
    [The following information can be found on page 99 in the 
appendix.]
    Chairwoman Stabenow. If there are no objections, the 
letters will be inserted into the record.
    Seeing none, I would now like to turn to Senator Cochran.

STATEMENT OF HON. THAD COCHRAN, U.S. SENATOR FROM THE STATE OF 
                          MISSISSIPPI

    Senator Cochran. Madam Chair, I am very pleased to join you 
in welcoming our witnesses and the nominees for offices that 
are very important in the Department of Agriculture. I think 
both of them are very well qualified by virtue of their 
experiences and performance of duties in the government as well 
as private sector organizations in the field of agriculture.
    I look forward to their testimony and to their favorable 
consideration by the Committee.
    Chairwoman Stabenow. Thank you very much.
    Before turning to Congressman Bishop, who I know would like 
to introduce our first nominee, and welcome, Congressman; it is 
wonderful to have you here for the Committee, but I know that 
Senator Chambliss also wanted to say a few words.
    Senator Chambliss.

STATEMENT OF HON. SAXBY CHAMBLISS, U.S. SENATOR FROM THE STATE 
                           OF GEORGIA

    Senator Chambliss. Thank you very much, Madam Chair. It is 
a privilege for me to have a chance to introduce again to this 
Committee my long-time dear friend Krysta Harden. It is hard to 
believe that I first met Krysta in 1980 when she was a 
volunteer for then aspiring Congressmen Charles Hatcher and she 
gets the sole credit for him being elected that year.
    [Laughter.]
    Senator Chambliss. She has not gotten any older but I have. 
She has been my dear friend since then and it has been a real 
privilege to watch Krysta to grow and mature into the great, 
great person she is now but also the great leader she is now.
    She has great experience both on and off the Hill in 
preparing for this position that she has been nominated to 
which obviously is the number two position at USDA.
    Krysta served in Congressmen Hatcher's office for many 
years, starting out as a receptionist and ending up as Chief of 
Staff. That is the kind of job that she did for him. She also 
worked on the Agriculture Committee as Chief of Staff or one of 
the Subcommittees that Charles was the Chairman of.
    But probably, and of course, being in the Administration 
now, was congressional liaison and then Chief of Staff to the 
Secretary, letting her know what was going on inside USDA over 
the last several years.
    But, I think probably what has prepared her most for this 
job is the fact that she grew up on a farm in south Georgia. 
Her dad who is also a dear friend, Jimmy ``Hardrock'' Harden is 
here. He is a row crop farmer in south Georgia.
    Krysta knows firsthand what it is like to watch the crops 
be planted and hope there is rain and hope prices continue to 
rise. So, she is well prepared for this position and it is, 
indeed, a privilege for me to introduce her to the Committee 
today for the position of Deputy Secretary of Agriculture.
    Chairwoman Stabenow. Thank you so much also.
    Congressman Bishop, we would welcome any comments and 
thoughts from you as well before we turn to our nominees.

   STATEMENT OF HON. SANFORD BISHOP, U.S. REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF GEORGIA

    Mr. Bishop. Thank you very much.
    Good morning, Madam Chair Stabenow, Ranking Member, Senator 
Cochran, and members of the Committee.
    It is my distinct honor and privilege to come today joined 
by our distinguished senior Senator from Georgia and my good 
friend, Saxby Chambliss, is to support the nomination of Krysta 
Harden as the next Deputy Secretary of the United States 
Department of Agriculture.
    I have known Krysta and her husband Charles for decades and 
consider them to be dear friends. She also happens to be my 
constituent, hailing from the largely rural second 
Congressional District of Georgia, the heart of production 
agriculture as you have heard having been born and raised on 
one of the many peanut farms in our area in Mitchell County.
    Though she served many years in Washington D.C., Krysta 
still refers to herself as a Georgia farm girl. I am proud to 
say that she has never forgotten her roots and that she will 
bring a wealth of knowledge and experience wound from our 
rustic upbringing as well as her many years of federal 
experience to the new position at USDA.
    It has already been mentioned that she grew up and worked 
on the land on a farm, that she spent 16 years on Capitol Hill 
including a stint as Staff Director for the House Agriculture, 
Peanut, and Tobacco Subcommittee.
    She served for six years as CEO with the National 
Association of Conservation Districts, which represents the 
3000 districts tasked with carrying out our national resource 
management program, and most recently, of course, during the 
first Obama Administration, she joined Secretary Tom Vilsack at 
USDA as the Assistant Secretary for Congressional Relations, 
ultimately working her way up and earning the promotion in 2011 
by Secretary Vilsack as the Department's Chief of Staff.
    As a member of the House Appropriations Subcommittee on 
Agriculture, I have had the privilege of personally working 
with Krysta on a range of challenging and sensitive issues 
during her tenure in the Administration.
    I can say that I found her to be bipartisan and no-nonsense 
in our approach to problem-solving, demonstrating our ability 
to listen and her persistence and follow-through; and they had 
been altogether refreshing and valuable, I think, whether 
working on national issues such as the re-authorization of the 
Farm Bill or the Administration's proposed reforms for the crop 
insurance and direct payment programs or working with the 
Congressional Black Caucus on developing legislative framework 
for the farmer settlements or assisting that our office or 
other offices in helping local farmers overcome some of the 
challenges with the county FSA offices. I have always found her 
to be honest, forthright, and fair.
    I have every belief that she represents the highest 
standards of public service. So, I have every confidence that 
she will perform admirably as the Deputy Secretary of the USDA 
and I wholeheartedly support her nomination for this very, very 
important position.
    So, thank you, Madam Chair and members of the Committee, 
for allowing me to have these few words to second the 
nomination and to support my friend, my colleague, my 
constituent Krysta Harden.
    Chairwoman Stabenow. Well, thank you very much, 
Representative Bishop.
    I think, Ms. Harden, from your perspective we should just 
adjourn your portion of the meeting at this point, I think.
    [Laughter.]
    Chairwoman Stabenow. But we will proceed with both of you 
who have come with very impressive support. Let me officially 
introduce you.
    Our first nominee is Krysta Harden. Ms. Harden is 
currently, as we know, Chief of Staff at the USDA, a position 
that she has held since 2011. Prior to this, Ms. Harden served 
as Assistant Secretary for Congressional Relations at USDA in 
2009 through 2011.
    From 2004 through 2009, she served as the Chief Executive 
Officer of the National Association of Conservation Districts. 
At NACD, she was actively involved with the Committee in 
building broader coalitions around the conservation title of 
the farm bill.
    Previously, Ms. Harden was the Senior Vice President of 
Gordley Associates from 1993 to 2004. She also served as Staff 
Director for the U.S. House Committee on Agriculture 
Subcommittee on Peanuts and Tobacco from 1992 to 1993.
    Ms. Harden received her BA in journalism at the University 
of Georgia, and there may be others here with you today, but I 
do want to recognize your father, Jimmy Harden, and your 
husband, former Congressman Charles Hatcher. Welcome to both of 
you. We are happy to have you.
    Our next nominee is Robert Bonnie. Mr. Bonnie is currently 
a Senior Policy Adviser at USDA, a position he has held since 
2009. Prior to this, he worked for the Environmental Defense 
Fund where he held a number of roles from 1995 until 2008, 
including Vice President of Land Conservation and Wildlife and 
Managing Director of the Center for Conservation Incentives.
    Mr. Bonnie served on the board of visitors at Duke 
University Nicholas School of the Environment and Earth 
Sciences. He was a member of the board of directors for the 
Piedmont Environmental Council in Scenic America.
    Mr. Bonnie received an AB from Harvard College and an MF 
and MEM from the Duke University Nicholas School of the 
Environment. I understand, Mr. Bonnie, that your wife Julia 
Gomena and your brother Shelby Bonnie are also with you today. 
So, we welcome them.
    Now, there are two things that we need to do before hearing 
from you. One is to administer an oath that we have for all of 
our nominees and I would ask you to stand and raise your right 
hand.
    Do you swear that the testimony you are about to present is 
the truth, the whole truth, and nothing but the truth so help 
you God?
    Ms. Harden. I do.
    Mr. Bonnie. I do.
    Chairwoman Stabenow. Secondly, do you agree that if 
confirmed, you will appear before any newly constituted 
Committee of Congress if asked to appear?
    Ms. Harden. Yes.
    Mr. Bonnie. Yes.
    Chairwoman Stabenow. Thank you very much.
    At this point, we would like to proceed, Ms. Harden, with 
your remarks, welcome.

TESTIMONY OF KRYSTA HARDEN, OF GEORGIA, NOMINATED TO BE DEPUTY 
                    SECRETARY OF AGRICULTURE

    Ms. Harden. Madam Chairwoman and members of the Committee, 
thank you for this opportunity to appear today before you as 
President Obama's nominee to serve as Deputy Secretary of the 
U.S. Department of Agriculture.
    I apologize, every time I read that, it's just hard to 
believe.
    I want to begin by expressing my appreciation to the 
President for nominating me and to Secretary Vilsack for his 
great leadership at USDA.
    I want to thank you, Senator Chambliss, for your kind words 
today. Your friendship and support have meant so much to me for 
many years and a thank you to Congressman Bishop for coming 
over to the Senate side and spending your time for all those 
kind words. Thank you too, sir.
    With me today is my husband of 17 years, Charles Hatcher. 
There is so much I would like to say about him, but for the 
sake of time, I will just say that he is my biggest champion, 
my strongest supporter and best friend. Thank you, Charles, for 
all you have done to make this day possible for me.
    I would also want to thank my wonderful parents, Jamie and 
Jimmy Harden. My daddy is here representing the family, as you 
have heard. It takes a lot to get him off the farm, especially 
this time of year.
    [Laughter.]
    Ms. Harden. So, I would like to say thank you to him for 
being here.
    I want to send a big hello and a hug to my mama Jamie and 
my sister back home in Georgia. I am truly blessed with a 
loving and supportive family.
    Finally, I want to recognize my friends and colleagues from 
over the years. Many are here today or watching via the 
Internet. Your guidance, your friendship, and help are very 
much appreciated.
    I am a product of rural America. Even during my time in 
Washington, I had considered Georgia home. I grew up in 
Camilla, Georgia on my parents farm. My daddy grew up raising 
tobacco, fruits, and vegetables; and my mommy came from a 
traditional row crop farm where her family also had a cow/calf 
operation.
    Their backgrounds show the incredible diversity of American 
agriculture. My home also reminds me of rural America and the 
need for a thriving rural community. When I graduated from 
college I did not see opportunity in rural Georgia.
    Today, too many young people face that same challenge. They 
feel deeply connected to rural America but they are not sure 
how to stay. We owe them strong rural communities.
    I have done my best to contribute to that goal over the 
years from my time as a House staffer, to working with soybean 
producers at Gordley Associates, to serving as CEO of NACD and 
finally serving on the leadership team at USDA.
    I am proud of what we have accomplished during my time at 
the Agriculture Department. We quickly implemented the 2008 
Farm Bill which has allowed us to deliver record results. This 
includes record farm loans, record investment in small towns, 
record conservation efforts and record agriculture trade.
    We have supported agriculture research, expanded local and 
regional markets and improved the safety of our food supply. In 
partnership with this Committee, we also achieved passage of 
the Healthy, Hunger-Free Kids Act of 2010 and we have provided 
dependable nutrition assistance to millions of American 
families.
    Today, our work is not finished. If confirmed, I will 
continue our efforts to strengthen the rural economy in several 
key areas.
    First, we can continue to support our farmers and ranchers 
to grow existing markets and create new ones. If confirmed, I 
would help open more doors around the world for quality U.S. 
products. We can expand local and regional markets.
    If confirmed, I want to grow the numbers of farmers markets 
and regional food hubs around the country. This creates new 
income opportunities and it helps to ensure that there is a 
place for everyone in agriculture. We need new farmers and they 
are coming from all walks of life, young people, immigrants, 
returning veterans, and women more than ever are starting all 
sizes of operations. We can give them the tools to get started 
and to keep growing.
    We are on the cutting-edge of new conservation 
opportunities today. USDA can help protect our natural 
resources and tap into economic opportunity through increased 
outdoor activities, and we can grow the outdoor-based economy.
    Many of us here today have worked hard over the years to 
harness the potential of home-grown products. I share Secretary 
Vilsack's belief that rural America can do even more, creating 
new jobs in the process.
    Throughout all of this work, we must continue to foster a 
new era of civil rights at USDA. With the support of this 
Committee, we have taken steps to correct USDA's past history 
of discrimination and we can ensure history does not repeat 
itself.
    To carry out much of our work, USDA relies on the Farm 
Bill. We remain committed to helping Congress pass a 
comprehensive agricultural reform food and jobs act that builds 
on the strong bipartisan spirit shown in the U.S. Senate. If 
confirmed, I look forward to leading our effort to implement 
this legislation swiftly once it is passed.
    Finally, in a time of tight budgets, if confirmed, I will 
support USDA's proactive efforts that have already saved more 
than $828 million in recent years.
    Madam Chairwoman and members of the Committee, thank you 
for this opportunity to appear before you today. I come from a 
small town with parents who are still on the farm. But I know 
that Camilla, Georgia is just one of the thousands of wonderful 
small towns in every corner of the Nation. They are the 
backbone of our country and the heart of our values. They 
deserve our best.
    If confirmed, I look forward to working with you, President 
Obama and Secretary Vilsack to deliver results for rural 
America and create opportunity for generations to come.
    Thank you, and I look forward to answering any questions 
you might have.
    [The prepared statement of Ms. Harden can be found on page 
25 in the appendix.]
    Chairwoman Stabenow. Thank you very much.
    Mr. Bonnie, welcome.

TESTIMONY OF ROBERT BONNIE, OF VIRGINIA, NOMINATED TO BE UNDER 
 SECRETARY OF AGRICULTURE FOR NATURAL RESOURCES AND ENVIRONMENT

    Mr. Bonnie. Thank you. Madam Chairwoman and members of the 
Committee, I want to thank you for the opportunity to appear 
before you today and for your consideration of my nomination as 
Under Secretary for Natural Resources and Environment at USDA.
    I want to thank President Obama for nominating me and 
Secretary Vilsack for his confidence in me. If confirmed, I 
look forward to working with Secretary Vilsack to build upon 
the Administration's commitment to rural America through the 
conservation of our working lands, and our National Forests.
    I want to start by thanking my wife Julie, who is here 
today, and my daughter Lilly, both of whom have seen a little 
less of me as a result of my government service. If confirmed, 
I suspect that will not change a whole lot and I appreciate 
their love and patience.
    Also, I want to recognize my mother, my father, and my 
brother Shelby who is here today as well. They have encouraged 
my interest in the outdoors.
    My commitment to conservation began at an early age. I grew 
up on a farm in Kentucky and, as a kid, spent a lot of time 
outside fishing, hunting, and helping out around the farm.
    My family has also owned and managed forest land in South 
Carolina for over a century. As a forester, I worked directly 
on managing these lands for timber, for wildlife, and for 
recreation.
    I understand from personal experience the challenges of 
maintaining family-owned farms and forests while being good 
stewards. Our working lands and our National Forests provide 
significant benefits to the American people, including food and 
fiber, clean water, wildlife habitat, and recreation.
    USDA's Natural Resources Conservation Service in particular 
plays a key role in the voluntary conservation of working lands 
by providing financial and technical assistance to farmers, 
ranchers, and forest owners to conserve soil and water, to 
improve rangeland and to protect habitat for hunting and 
fishing.
    In particular, NRCS makes it possible for landowners to 
enhance the productivity of their operations while conserving 
natural resources. In a budgetary environment where resources 
are limited, focusing NRCS resources on important conservation 
challenges and leveraging additional capacity from partnerships 
with farm, conservation, and other stakeholders will remain 
important.
    Continued innovation through efforts such as working lands 
for wildlife that combine financial and technical assistance 
with regulatory assurances is also important.
    Through authorization of a comprehensive food farm and jobs 
bill is central to USDA's work on conservation. This Committee 
and the U.S. Senate have passed strong, bipartisan legislation 
to reauthorize farm programs; and if confirmed, I will work 
with Secretary Vilsack to highlight the importance of passing 
long-term legislation; and when such legislation passes, I will 
work with NRCS and the Forest Service to implement the 
legislation in a timely way.
    America's forests face significant threats including 
catastrophic wildfire and pine bark beetles on National 
Forests, and the loss of our private working lands to 
development.
    On our National Forests, we must work in collaboration with 
communities, with forest industry, and with conservation groups 
to increase the pace and scale of restoration and management.
    If confirmed, I will work with the Secretary and with 
Forest Service Chief Tidwell, to treat more acres on National 
Forests, to produce more timber and biomass, and to improve the 
ecological health of our forests.
    Catastrophic wildfire is an enormous challenge for the 
Forest Service and its federal and state partner agencies. 
Since the 1970s, average acreages burned have more than doubled 
to over 7 million acres a year. Fire seasons are now 60 to 80 
days longer. A warming climate, increased fuel loads, and 
housing construction in the wildland urban interface have 
increased threats to people, property, rangeland, and forests.
    The President and the Secretary have spoken about the 
fiscal challenges related to wildfire. The Forest Service now 
spends about 40 percent of its budget on fire, forcing the 
agency to make difficult decisions including curtailing funds 
for management activities that might otherwise reduce threats 
from fire. If confirmed, I look forward to working with the 
President, the Secretary, and all of you to address this 
challenge.
    In our working forests, we must ensure landowners have the 
economic incentives to conserve and maintain lands to the long 
term. Here NRCS and the Forest Service can work together to 
ensure land owners have the incentives and the markets to keep 
forests as forests.
    Outdoor recreation, including hunting and fishing and many 
other activities, is also important to the economies of rural 
communities. If confirmed, I will work with NRCS, the Forest 
Service, and other agencies across the federal government to 
promote outdoor recreation on our public and private lands.
    Madam Chairwoman and members of the Committee, in closing, 
I want to again thank you for the opportunity to appear before 
you today. Conservation of our natural resources is closely 
linked to the prosperity and well-being of rural and urban 
Americans alike. If confirmed, I look forward to working with 
President Obama, with Secretary Vilsack to contribute to the 
conservation of our working lands and forests.
    Thank you.
    [The prepared statement of Mr. Bonnie can be found on page 
22 in the appendix.]
    Chairwoman Stabenow. Thank you very much.
    Senator Thune. Madam chairwoman, will we have the 
opportunity to submit questions for the record if we cannot do 
it today?
    Chairwoman Stabenow. Absolutely. We are happy to accept 
both opening statements and questions for the record. Thank 
you.
    First, let me just ask both of you. You have been with the 
Department over the last four years. There have been a lot of 
challenges, a lot of accomplishments. I wondered if you each 
might speak to one or two examples in your experience that 
demonstrates both the challenges you have faced and the role 
that you have played in addressing them as you look to your new 
roles.
    Ms. Harden.
    Ms. Harden. That is a good question. I think the first 
thing that comes to my mind, Madam Chairwoman, is managing it 
with uncertainty on budgets. I think of the four years that I 
have been at USDA, three of those years we have not had a 
budget, not knowing if we are going to have a continuing 
resolution, trying to keep the workforce focused across the 
country, across the world. Our folks do not always understand 
how Washington works or sometimes do not. So, trying to manage 
through that and making sure that we continue to provide the 
quality service that we are known for.
    We have the greatest employees I believe in any institution 
at USDA. They want to serve. Our stakeholders, they want to do 
the right thing, but I think that would probably, in preparing 
for this job, would give me the understanding of what is needed 
to keep folks focused and doing that kind of work even with 
uncertainty.
    I think the other thing that comes to mind is being 
involved in the implementation of the 2008 Farm Bill, we walked 
in needing to get that done quickly. Folks were waiting. Our 
stakeholders needed to have results from the department. So 
being prepared hopefully to implement the 2012 will be the two 
issues that come to mind.
    Chairwoman Stabenow. Thank you.
    Mr. Bonnie.
    Mr. Bonnie. Senator, I think one of the issues I would 
mention is our work on the drought last summer. I worked with 
the Secretary, NRCS, FSA and even the Forest Service to work to 
provide some flexibility for landowners that we are dealing 
with a very difficult drought situation.
    On the NRCS side, we targeted some Farm Bill dollars to 
help with drought mitigation. On the CRP side, it was about 
making sure that we provide some flexibility in the program to 
allow for some emergency haying and grazing and to move quickly 
in a way that we could do that would pass legal scrutiny as 
well. We worked quickly to do that.
    We had a tough fire season as well last summer and again 
this summer and so we worked with the Forest Service to make 
sure we have the resources, whether it is air tankers or 
otherwise.
    Those are two areas where, I think, we have had to a little 
bit of thinking on the fly and work within the resources we 
have but recognize that the stakes are big for our 
stakeholders, farmers, ranchers, and forest landowners and for 
the public that relies on the food and fiber that they and the 
National Forests produce.
    Chairwoman Stabenow. Just a little bit more, talking about 
thinking on the fly or being creative, we all know we are in 
very challenging times as it relates to resources. Our Farm 
Bill saves money in the ways of streamlining that we hope will 
make it actually easier to implement and better for folks on 
the ground, farmers and ranchers and so on. But, it is going to 
involve a lot of creative thinking as we go forward as we look 
at how we leverage funding and so on.
    So, I wonder if each of you might just speak of little bit 
more about that as we are looking at tight resources, 
leveraging funds, being creative, anything along that line that 
you would want to talk about.
    Ms. Harden. I will first highlight a couple of things. The 
first that comes to mind, as I mentioned in my opening 
statement, about the $828 million that we proactively have been 
able to avoid spending at USDA, and that is really by being 
creative.
    It is a blueprint for stronger services, what we have 
called this initiative and looking at ways to consolidate 
contracting, look at the way we manage our procurements of 
buildings and facilities, looking how to modernize our 
workforce, using all the tools that we have available 
proactively thinking about what is ahead. So, I think those 
kinds of things we have to continue.
    I learned a lot about working in partnerships when I was 
NACD, working with states, federal, local districts and 
building on those partnerships; sharing the workload, working 
together, making sure you are not duplicating.
    Those are the two examples that I would have.
    Mr. Bonnie. I will just add to that. I think clearly we are 
all operating in a difficult fiscal environment. In the case of 
the Farm Bill, it means leveraging our resources through 
partnerships, the kind of leverage that I think you all were 
thinking about in putting together regional conservation 
partnership initiative in the Farm Bill. That is exactly the 
approach we need to take.
    We need to bring partners to the table, leverage our 
resources. I think it is also important to think about priority 
setting. We are going to have to use our resources in a way 
that generates the most benefit for the public and obviously 
generates important benefits for natural resources as well.
    Chairwoman Stabenow. Let me just in closing my time, really 
commend both of you and the Secretary and the Department 
because when you look at percentage-wise across in the Federal 
Government, we have seen more cuts I think in agriculture than 
just about any other area.
    You have had to manage a tremendous amount of cuts and 
rearranging things; and when I look at agricultural research, I 
am very concerned that has been the area hit harder than any 
other area of research in the federal government around food 
safety and pests and disease and so on.
    I am hopeful that while we will continue to focus on 
structuring dollars, that agriculture will be treated fairly in 
the context of the overall budget discussion. That is our job 
as well.
    Senator Cochran.
    Senator Cochran. Madam Chair, I am pleased to join you in 
welcoming our distinguished witnesses this morning and 
congratulating them on their nomination. We look forward to 
working with you in trying to be sure that we do the things 
that we need to do to help promote American agricultural 
interests and create an environment where we are working 
together, the public sector and private enterprise can help 
assure the continued viability and profitability of American 
farms.
    We know that you both have personal experiences that you 
will be able to draw on to help deal with the challenges that 
these offices have.
    First of all, I want to ask Ms. Harden. I know that you 
realize I have got to ask about catfish inspection. So, I might 
as well just go on and get that out of the way.
    [Laughter.]
    Senator Cochran. What are your thoughts about how we can 
implement in a responsible way a catfish or aquaculture program 
guaranteeing the wholesomeness and the fitness for food of 
these fish throughout the United States?
    Ms. Harden. Senator Cochran I would have been disappointed 
if you did not ask me.
    [Laughter.]
    Ms. Harden. It is a complex issue as you know very well and 
I would say to you, if I am confirmed by the Senate, that I 
will work with you for a path forward this year on this issue. 
I know you have waited a long time and I will work with you on 
this, sir, if I am confirmed.
    Senator Cochran. Mr. Bonnie, do you have any thoughts about 
that?
    [Laughter.]
    Mr. Bonnie. I think I will stay away from this one.
    Senator Cochran. Well, you have some important 
responsibilities too. I think in our State somebody was 
surprised to find out that forestry and forest products were 
the number one commodity for production of income for 
landowners and those involved in the industries.
    What are your thoughts about carrying out the provisions of 
the Farm Bill that provide programs under the jurisdiction of 
the National Resources Conservation Service and how you can 
assist farmers in dealing with challenges that they face in the 
marketplace today?
    Mr. Bonnie. I think on the forestry side, if you look at 
private forest lands across the United States, we are losing, 
slowly losing our private working lands and they provided 
incredible benefits to the public.
    NRCS has made some really important strides in working with 
landowners on everything from timber stand improvements to re-
forestation. I think it is going to be critical in places like 
Mississippi where forests not only provide places where people 
hunt and fish and important natural resource benefits to the 
communities there but it also is critical to the economic 
infrastructure.
    So, working with farmers and forest landowners to keep 
forest viable to make sure it remains an important economic 
resource that they can grow timber and produce all those 
benefits but also do it economically viably I think is 
critically important.
    Likewise, on the agricultural side, the work that NRCS does 
to not only encourage good stewardship but do it in a way that 
enhances the productive capacity of the land is going to be 
critically important.
    I think that is an area where NRCS is a bit of an unsung 
hero frankly in conservation and there is a lot more work to do 
there; and if confirmed, I look forward to doing it.
    Senator Cochran. Thank you.
    Thank you, Madam Chair.
    Chairwoman Stabenow. Thank you very much. I also want to 
thank Senator Cochran. When I was in Mississippi speaking to 
the Delta Council, he made sure we had catfish. It was good.
    Senator Bennet, the Chair of our Conservation Subcommittee.
    Senator Bennet. Thank you. I would like to thank Senator 
Cochran for his catfish question. We are not producers of 
catfish in Colorado but I am married to a woman from the 
Mississippi Delta and rural Arkansas so we are consumers of 
catfish in Colorado and look forward to working with you and 
following your work on this.
    Ms. Harden, congratulations to both of you and thank you 
for your service and you're incredibly well qualified for these 
jobs and I look forward to working with you.
    I wanted to ask Ms. Harden first a question about exports. 
You alluded to this in your testimony. We often talk in this 
Committee about the safe, and affordable and abundant food 
supply that we enjoy as Americans. That is all true. That is 
certainly true.
    But, the rest of the world is also paying attention to what 
we are doing here and more consumers from overseas are opening 
their wallets to our production here.
    My office has held eight sessions around the State, eight 
export workshops, an initiative we are calling Beyond Colorado, 
aimed at helping farmers, ranchers, and small businesses export 
their products and I can tell you there is tremendous interest 
among our producers about this worldwide market.
    So, with exports representing one of the greatest 
opportunities to create new wealth in agriculture, what more 
can the USDA do to help facilitate more business opportunities 
for our farmers and ranchers around the world?
    Ms. Harden. Thank you, sir, I could not agree with you 
more.
    As I did mention in my testimony, that is one area I hope 
to really focus on in making sure that we do open more of those 
doors and more of those markets.
    The trade agreements that we have with South Korea, Panama 
and Colombia immediately open markets that we have not had 
access to. So, that is a start obviously. TPP and discussions 
in the EU are underway so we are hoping that those will 
conclude.
    We have been working on non-tariff barriers at USDA to get 
our products into new markets. It has been a priority for USDA 
even during tough budget times to make sure that we are leading 
trade missions with U.S. companies and producers and state 
departments of agriculture. We had a trade mission to Turkey 
just this summer. There is one scheduled in the fall with South 
Africa.
    So, we very much agree with you, sir, and I personally 
pledge to you that I will work in this area if I am confirmed 
by the Senate.
    Senator Bennet. I look forward to working with you on that. 
I think this is just vital for job creation in rural Colorado 
and rural America. So, thank you.
    Mr. Bonnie, I know that you are well aware of the issues 
that we are facing in Colorado with our forests both in terms 
of the wildfires and beetle infestation that we've had. It has 
been a very, very difficult time for us.
    We've noticed that the Forest Service's 2012 report on 
restoration and job creation on our National Forests called for 
large landscape-level environmental analyses extensively to 
accelerate restoration over a large area without having to do 
countless studies.
    I understand the Black Hills National Forest in my 
colleague Senator Thune's State of South Dakota recently 
undertook such an analysis covering 250,000 acres.
    So, my question is whether the Forest Service plans to do 
any additional landscape-level analysis in other states; and if 
so, I would gladly volunteer Colorado as a place where you can 
do your next one.
    Mr. Bonnie. Well, I think these types of approaches are 
going to be critically important. We have got the quarter of a 
million acres in the Black Hills National Forest. We have got 
one in the Four Forest Restoration Initiative in Arizona which 
is a million acres.
    We are trying to do this to both provide the landscape-
scale work we need to do to be able to confront this problem of 
both bark beetles and catastrophic fire but at the same time do 
a large enough project so that the forest industry, has 
certainty that they can invest in the mills and the 
infrastructure they need to help carry out these efforts.
    We are going to try to do more of this. The Chief is 
interested in doing more of it and there is an enormous need, 
as you know better than anyone, in Colorado particularly on the 
front range where we have challenges related to fuel buildup 
intermixed with communities that are right in the wildland-
urban interface.
    So, this is just the type of approach that we are 
interested in that we want to do more of and we would love to 
work with you to take it forward.
    Senator Bennet. We will take you up on that.
    Madam Chair, I know that you know this. This beetle kill in 
Colorado is a wasting asset. If we do not figure out how to use 
it and get it milled, it is not going to be there anymore.
    I mentioned to you, Mr. Bonnie, when we were together. I 
recently had a chance to visit a small mill named Colorado 
Timber Resources who are making two by fours that they are 
shipping to Louisiana. Their view was that they could triple 
their production if we could figure out how to get them for 
this material.
    So, I look forward to working with you. Thank you.
    Thank you, Madam Chair.
    Chairwoman Stabenow. Thank you very much.
    Senator Chambliss.
    Senator Chambliss. Thanks very much, Madam Chair.
    Krysta, you alluded to this in your opening statement and 
obviously I know what your answer is but just for the record, 
as you know, we are in the process of trying to complete a Farm 
Bill this year.
    It is imperative that we get that done, and thanks to the 
leadership of our Chairman and Senator Cochran hopefully we are 
headed that way.
    But, we had some implementations issues with both of the 
last two Farm Bills. Some of it was relative to new programs 
that were created that you are very familiar with. I do not 
think we got anything new and different in this program but we 
certainly have a lot less money to operate with than we have 
ever had.
    I simply would like a commitment from you that you are 
going to work as hard as you can to make sure that once this 
bill does get signed into law that the Department of 
Agriculture is going to implement the new Farm Bill as quickly 
as possible to give our producers some certainty and some 
definitive answers to the many issues that they are going to 
have in that Farm Bill.
    Ms. Harden. Senator Chambliss, we are ready. You all send 
us a Farm Bill, we will get it done in a timely and orderly 
manner and I hope to be leading that effort if I am confirmed 
by the Senate.
    Senator Chambliss. Mr. Bonnie, as you know, palmar 
amaranth, which is commonly known as pigweed, has developed a 
resistance to glyphosphate which is a widely used herbicide. 
NRCS has a pilot program that was developed through EQIP that 
helps cotton farmers control this resistant pigweed.
    I would like to note that the control measures were 
developed by Stanley Culpepper, as you know, at Tifton Campus 
at the University of Georgia.
    Can you give me an update on that program? There have got 
to be other issues out there too relative to resistance to our 
herbicides. What has NRCS got on the table relative to how we 
are going to combat these resistant weeds?
    Mr. Bonnie. Yeah, this is a challenge across the country. 
In the case of the work in South Georgia, I believe NRCS has 
put about $1 million into this program over the fiscal year 
2010 through 2012 and it is seeing some real results.
    I think we are seeing some benefits in that pilot project 
and hope that we can take the lessons from that and use a 
program like EQIP or other Farm Bill programs to spread the 
gospel, as it were, both through technical assistance and 
through financial assistance.
    I would think more broadly that this is a perfect example 
of where NRCS programs can both work on critical natural 
resource conservation challenges and improve the productive 
capacity of our farmers and ranchers to produce food and fiber.
    This is an area that I think is a growing problem and we 
are going to need to tackle it more aggressively as we move 
forward.
    Senator Chambliss. One other program that has been really 
beneficial to Georgia forestry farmers is the Longleaf Pine 
program. It is now making a huge difference in many areas 
whether it is a erosion or whether it is the long-term economic 
benefit to our farmers.
    I know you are very familiar with it and I hope you will 
continue to pay close attention to that program and monitor it 
as we go along in this next Farm Bill.
    Mr. Bonnie. I will indeed. As most people who know me, I 
have a soft spot for Longleaf Pine and it is important. NRCS is 
doing great work there and that will continue.
    Senator Chambliss. Thank you very much, Madam Chair.
    Chairwoman Stabenow. Thank you. Now to the Chair of our 
Subcommittee on Commodities and Markets, Senator Donnelly.
    Senator Donnelly. Thank you, Madam Chair, and 
congratulations Ms. Harden and Mr. Bonnie. You know, when they 
called me Senator, I could not believe it either. So, it has 
been a great honor.
    Ms. Harden, just a couple of things. In regards to product 
that is out there, it is called Enlist, and it is something 
that we talked about a little bit. This has been under review 
for four years now.
    I said to somebody, you know, I have some kids; and I was 
fortunate that they were able to graduate college within four 
years; but they did that in a quicker time than they have been 
able to complete the review of this.
    I was wondering if you have any idea when USDA plans to 
respond to the latest petition for deregulation.
    Ms. Harden. I believe I am familiar with what you are 
talking about.
    Senator Donnelly. Right.
    Ms. Harden. It is in our General Counsel's Office, and we 
will be able to provide a response late this summer.
    Senator Donnelly. Thank you very much.
    Then this is just a technical issue that we have a place to 
call. We had a group of farmers from Indiana who came out to 
speak to folks at USDA on this and kind of got bounced around 
all week and we would just like to know that we can give you a 
call and get people squared away when they come into town.
    Ms. Harden. Most definitely, sir. I have prided myself my 
entire career and especially my years at USDA at being 
accessible and responsible to the people that I work for, and I 
believe that is the taxpayer, and so I assure you, sir, I will 
be available.
    Senator Donnelly. Thank you very, very much.
    Mr. Bonnie, thank you again for coming by the office, both 
of you. In Indiana, we actually lead the Nation right now in 
the highest percentage of acres using cover crop.
    When it is done right, it increases yields, improves 
drought resistance, reduces nutrient runoffs that affect in our 
State almost what happens through a huge portion of the country 
when it goes down the Ohio River and goes into other areas.
    If it is not done right, though, there can be a lot of 
negative consequences and that is the pullback that we get from 
a lot of farmers back home.
    So, what was mentioned before by some of the other 
colleagues here is about technical assistance and that seems to 
be the key to getting it done right.
    I was wondering how you plan to deliver that kind of 
technical assistance in a better, more effective way that we 
can reach out to more because it seems every dollar spent on 
this provides cleaner rivers, reduced runoff and better land 
stewardship.
    Mr. Bonnie. You are exactly right. I think technical 
assistance is an incredibly valuable role of NRCS and I think 
one of our goals at NRCS is to get our folks out behind desks 
and back out into the field where they can interact directly 
with farmers.
    We have got a conservation streamlining delivery initiative 
to do that. I think that is going to be absolutely critical 
figuring out ways that we can use new types of technology to 
interact with farmers to give them ready information on this.
    Just as you say, cover crops are incredibly important but 
they have to be done right. We need to be able to facilitate 
that by providing information and ready access to information 
for farmers and ranchers. I think that will continue to be a 
real priority of NRCS as we move forward.
    Senator Donnelly. I also wanted to ask you about our 
National Forests in Indiana. A number of Hoosiers are worried 
about potential reductions in the Forest Service timber harvest 
goals, and it seems to be that this could be a win-win 
situation that we want to manage these forests right but my 
colleague Mr. Bennet was just talking about the tremendous fire 
problems we have.
    He mentioned 40 percent of the budget is on that now. It is 
the kind of thing that I have been looking closely at 
personally. How do we reduce the fuel load that is in these 
forests? To just not manage them is to seem to make the 
decision to cause things to occur there.
    So effective proper management, I think, is the best way to 
protect our forests in the long run as well. I would like to 
get your views on that.
    Mr. Bonnie. I could not agree more. We have got 60 to 
80,000,000 acres across 193 million acres system that are in 
need of some form of restoration treatment, whether that be low 
intensity prescribed fire or the type of mechanical treatment 
where we are going in and thinning forests, making them more 
resilient to fire.
    There is a real opportunity here to improve not only 
ecological health of forests by doing stewardship the right way 
and treatments the right way but also to provide jobs and 
opportunity to local communities.
    Of course, it is a balance but the National Forests are a 
multiple use system. We need to balance timber production with 
recreation and ecological health of forests but there is a real 
opportunity here.
    We need to do more work and the way over the long term to 
keep the fire numbers from swallowing the Forest Service budget 
entirely is to do the work on the front-end that will reduce 
the severity of fires over the long term.
    Senator Donnelly. Well, congratulations to both of you. We 
look forward to working with you, and thank you so much for 
your leadership.
    Thank you, Madam Chair.
    Chairwoman Stabenow. Thank you very much.
    Senator Hoeven, and before you give your questions, you 
were not here earlier when I said how proud I was of the team 
effort last week in order to move things forward to go back 
from the Senate Farm Bill returning to the House but I just 
want to say once again thank you for the final hours joining me 
on the floor and being a part of a very important effort and I 
really appreciate your leadership.
    Senator Hoeven. Thank you, Madam Chairman. I appreciate it 
and really appreciate your leadership on working so hard to get 
a new Farm Bill which we very much need.
    Chairwoman Stabenow. Yes.
    Senator Hoeven. Again, welcome to both of you and thank you 
to both of you for coming by my office and sitting down and 
visiting on some of these important issues for our producers, 
for our farmers and ranchers. I really appreciate that.
    I just want to start out and talk for a minute about the 
regulatory burden that our farmers and ranchers face. It is 
something that we talked about, and it is not unique just to 
agriculture. I am hearing this across every industry.
    We understand there is a proper role for regulation. I 
mean, it is to protect the environment. We want to make sure 
there are not abuses going on there.
    But at the same time, it should not be so burdensome and 
complex that people do not know how to comply and spend all 
their time trying to figure out and end up not just being able 
to farm or ranch in the proper fashion they normally do.
    Instead of making sure that you prevent the exception, we 
are forcing the rule kind of on everybody in a way that really 
is burdensome, difficult, and complicated.
    I tried to give you a couple of examples when we met and I 
would just like your response, and I will start with Ms. Harden 
on a couple of these examples and you can sure expand it to 
something else.
    For example, in the area of NRCS maps. North Dakota is a 
very pothole region of the country. Farmers and ranchers need 
to understand how to manage their farm or ranch and maintain 
the wetlands in a reasonable manner.
    For example, even in the maps, the NRCS maps from 1990 to 
1996, some of the maps were approved, some were not. Farmers 
still do not know whether they can rely on those maps.
    How do you propose, I mean, can we go back and actually 
look at those maps and get the farmers squared away on that 
specific issue?
    Mr. Bonnie, you can start with this one if you'd like, but 
I am just using that as an example. I would use the special 
measures on prevented plant, the one in four rule except then 
you have to define what is a normal weather year which nobody 
can define.
    How do you cut through this stuff and get our farmers and 
ranchers some certainty that works for them? I would love both 
of you to respond. Use these specifics or others.
    Mr. Bonnie. I am happy to start on the issues related to 
wetlands and the prairie pothole region.
    We really have two challenges. One is there has been a 
significant backlog of landowners who have been trying to get 
wetlands certifications over the last several years. NRCS has 
worked to put more staff, more contractors there to reduce that 
backlog by 40 percent. There is still work to be done there and 
I think that is an area, if confirmed, I will continue to work 
on.
    The second piece has to do with, I think, the issue you 
raised about maps and data. Are we using the best data? This is 
another area that NRCS is focused on, continued to do work on, 
and we will need to do work on going forward to make sure we 
are using the best data and that farmers and ranchers can rely 
on that and that we do it in a transparent way.
    That is an area that we will continue to work on and, if 
confirmed, I am happy to focus on it.
    Ms. Harden. Senator, I will just talk to you in a general 
sense. Obviously, common sense gets lost sometimes, and I think 
that is what is needed, practical approaches. Things that sound 
very good on paper, sound very good in an office here in 
Washington, just does not make good sense on the ground.
    I do not have to go very far to get an earful from my own 
daddy, sitting in the corner over here, a farmer himself. He 
says, ``Why in the heck are you all doing this this way?''
    I understand that. I cannot tell you I can fix everything 
because that would not be honest but I can tell you I am aware, 
I understand, I agree with you and that, if confirmed by the 
Senate, as well as Deputy, I will do what I can in that role to 
make sure that we do have practical approaches, that common 
sense applies, and just use my personal experience in 
recognizing that farmers want to do what is right. I believe 
that, if given the opportunity to, farmers and ranchers.
    Senator Hoeven. What I would propose and I think it would 
be helpful is if we could get you to come out to North Dakota, 
look at some of the wetlands areas, talk to some of the 
farmers.
    On the grasslands, come out and see the grasslands, talk to 
the ranchers so that when you work on grazing plans and 
allotments, you have seen it and you have heard from them 
directly.
    I think you hear from a lot of different folks back here 
but there is nothing better than seeing and then hearing from 
the people on the ground that are doing it every day. I would 
ask that you both commit to do that.
    Ms. Harden. Yes, sir, you have got our commitment.
    Mr. Bonnie. Absolutely.
    Senator Hoeven. Thank you very much. I do look forward to 
working with both of you.
    Chairwoman Stabenow. Thank you very much.
    At this point we have completed our questions so we want to 
thank you for being here today and I think it is very clear 
that we are impressed with both of you and I would just speak 
for myself, looking enthusiastically toward supporting your 
moving forward in this process. We will not be voting today on 
your nominations, but I will be working with Senator Cochran to 
find the time as soon as possible for a business meeting so 
that we can actually vote out your nominations.
    We look forward to working with both of you. We have a lot 
of work to do, now it is on us to get a Farm Bill done and then 
it will move to you in implementing that in the quickest, most 
efficient way for our farmers and ranchers. I know this will be 
a top priority for both of you.
    So, congratulations again on your nominations.
    The meeting is adjourned.
    [Whereupon, at 11:35 a.m., the Committee was adjourned.]
      
=======================================================================


                            A P P E N D I X

                             JULY 23, 2013



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] 
      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             JULY 23, 2013



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] 

=======================================================================


                         QUESTIONS AND ANSWERS

                             JULY 23, 2013




=======================================================================

[GRAPHIC] [TIFF OMITTED] 

                              <all>

</pre></body></html>
